HHS/OIG-Audit--"Review of EPOGEN Reimbursement"(A-01-97-00509)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
Review of EPOGEN Reimbursement, (A-01-97-00509)
November 24, 1997
Complete Text of Report is available in PDF format (863 kb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report points out that Medicare reimbursement for the drug EPOGEN (EPO) should be reduced to reflect
current market prices. The Social Security Act provides that, effective January 1, 1995, the Secretary of the Department
of Health and Human Services can set an appropriate reimbursement level for EPO. Our review disclosed that the current
EPO reimbursement rate of $10 per 1000 units administered exceeds the current cost of purchasing EPO by approximately $1.
Accordingly, we recommended that the Secretary consider reducing Medicare reimbursement to $9 per 1000 units administered.
This will result in savings to the Medicare program of approximately $94 million and to Medicare beneficiaries of approximately
$24 million per year beginning in 1998. The Health Care Financing Administration concurred with our recommendation and
intends to pursue this change either through the rulemaking process or as a legislative initiative in the President's Fiscal
Year 1999 Budget.